                                    UNITED STATES DEPARTMENT OF EDUCATION
                                                         OFFICE OF INSPECTOR GENERAL

                                                                                                                         Audit Services
                                                                                                                 Region IX, Sacramento



                                                          August 23, 2007

                                                                                                    Control Number
                                                                                                    ED-OIG/A09H0013

Dr. Paul J. Zingg, President
California State University, Chico
Kendall Hall, Room 105
Chico, CA 95929-0001

Dear Dr. Zingg:

This Final Audit Report, entitled California State University, Chico’s Administration of the
Federal Work-Study Program, presents the results of our audit. The purpose of the audit was to
determine if California State University, Chico (CSU-Chico) had policies and procedures that
provided reasonable assurance that Federal Work-Study (FWS) Program funds were paid to
eligible students for allowable employment and work performed. As part of our review of
students’ eligibility for FWS, we determined, for those students in our sample, if CSU-Chico
completed and accurately reported the verification of applicant data to the U.S. Department of
Education (Department) and complied with student financial aid award and packaging
requirements. Our review covered the period July 1, 2005, through June 30, 2006 (award year
2005-06).




                                                      BACKGROUND 



The FWS Program is a campus-based program that provides part-time employment to students
attending institutions of higher education to help them meet the costs of postsecondary
education. Funds for the FWS Program are authorized under the Higher Education Act of 1965,
as amended (HEA), Title IV, Part C. Regulations for the administration of the FWS Program are
provided in 34 C.F.R. Parts 668, 673, and 675.

Schools that participate in the FWS Program must make FWS jobs reasonably available to all
eligible students, and to the extent practicable, provide FWS jobs that complement and reinforce
the recipient’s educational program or career goals. In assigning an FWS job, a school must
consider the student’s financial need, the number of hours per week the student can work, the


 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
Final Report
ED-OIG/A09H0013                                                                     Page 2 of 13

period of employment, the anticipated wage rate, and the amount of other assistance available to
the student. FWS employment must be governed by the employment conditions, including pay,
that are appropriate and reasonable according to the type of work performed, the geographic
region, the employee’s proficiency, and any applicable Federal, State, or local laws. FWS
employers must pay students at least the Federal minimum wage in effect at the time of
employment.

CSU-Chico is one of 23 institutions in the California State University system. The school had
about 17,300 enrolled students and offered over 400 undergraduate and graduate programs.
During award year 2005-06, 783 students earned a total of $1,515,016 for work performed in
FWS jobs, of which $854,462 was paid with FWS funds and the remainder paid with funds from
non-Federal sources. All FWS jobs were located on campus.




                                    AUDIT RESULTS 



CSU-Chico had policies and procedures in place for administering the FWS Program, but it
needs to improve the procedures and monitor its staff’s adherence to them, to ensure that FWS
funds are paid to eligible students for allowable employment and work performed. CSU-Chico’s
procedures did not prevent, or ensure timely correction of, charges to the FWS Program that
exceeded students’ FWS awards; ensure that its staff prepared and maintained adequate FWS job
descriptions; or ensure that supervisors properly certified student timesheets. Procedural
weaknesses were also identified in CSU-Chico’s procedures for releasing FWS warrants. For the
students in our sample, CSU-Chico appropriately completed and accurately reported verification
of applicant data to the Department. We also found that CSU-Chico packaged student financial
aid for the sampled students in accordance with the applicable Federal regulations and
Department guidance.

In its comments on the draft report, CSU-Chico concurred with our finding and
recommendations. The comments are summarized at the end of the finding and the text of the
comments is included as an attachment to the report.

FINDING — 	CSU-Chico’s Procedures for Administration of the FWS Program
           Need Improvement

Our review of 33 FWS payments for award year 2005-06, which were made to 33 separate
students, found that 2 payments resulted in charges to the FWS Program that exceeded students’
FWS awards. CSU-Chico staff subsequently detected the excess charges, but did not reimburse
the FWS Program. For 6 of the 33 payments, CSU-Chico staff did not prepare adequate job
descriptions or the job descriptions were missing. We also found that supervisors did not record
the date of their certification of student timesheets for 13 payments and that CSU-Chico staff
released FWS warrants without requiring identification documents to confirm the recipient’s
identity.
Final Report
ED-OIG/A09H0013                                                                                         Page 3 of 13

CSU-Chico’s Procedures Did Not Prevent, or
Provide for Timely Correction of, Charges to the
FWS Program in Excess of Students’ FWS Awards

The CSU-Chico campus employers are responsible for noting the amount of students’
FWS awards and monitoring the payments to students to ensure that payments funded by the
FWS Program do not exceed the FWS awards. While processing the monthly payroll,
CSU-Chico runs a Work Study Holds list that identifies potential charges to the FWS Program in
excess of students’ FWS awards. When a charge in excess of a student’s FWS award is
identified, CSU-Chico staff notifies the campus employer to prevent further improper charges to
the FWS Program by either terminating the student’s employment or paying the student with
funds from other sources. CSU-Chico then proceeds with the processing of the payroll, since a
change in funding source can take up to 8 weeks to process. We found that CSU-Chico
procedures did not prevent, in our sample of 33 FWS payments, charges of $937 and $640 that
were in excess of students’ FWS awards. While we found evidence that CSU-Chico staff
contacted the respective campus employers regarding the charges, the charges were not
corrected; that is, the funding source for the $937 and $640 was not changed.

According to 34 C.F.R. § 673.5(a)(2), “An institution may only award FWS employment to a
student if the award, combined with the other estimated financial assistance the student receives,
does not exceed the student's financial need.” However, 34 C.F.R. § 673.5(e)(2) states, “[A]n
institution may provide additional FWS funding to a student whose need has been met until that
student's cumulative earnings from all need-based employment occurring subsequent to the time
his or her financial need has been met exceed $300.”

Thus, the two charges we identified of $937 and $640, that were in excess of the students’ FWS
awards, resulted in the improper use of $637 and $340 of FWS funds, respectively, for award
year 2005-06. Since CSU-Chico’s procedures did not prevent or provide for the timely
correction of the two charges in excess of the FWS awards identified in the 33 payments we
reviewed, other such charges may have occurred and not been corrected in award years 2005-06
and 2006-07.

CSU-Chico Staff Did Not Prepare and
Maintain Adequate Job Descriptions

CSU-Chico had written procedures for posting job information to its online campus job referral
system that included the job description elements specified by the Department in the Federal
Student Aid Handbook 2005-2006 (FSA Handbook). However, the school’s staff did not follow
the written procedures. For the 33 payments in our sample, the job descriptions for 4 payments
were not provided to us, and job descriptions for 2 other payments did not contain all the
specified elements. 1




__________________________
1
  The two inadequate job descriptions contained job duties, but did not include other required elements such as the
address of the student's employer, purpose of the student's job, job qualifications, wage rate or range, length of the
student's employment (beginning and ending dates), and name of the student's supervisor.
Final Report
ED-OIG/A09H0013                                                                          Page 4 of 13

Under 34 C.F.R. § 668.24(a)(3), an institution must maintain “program records that document
. . . [i]ts administration of the title IV, HEA programs in accordance with all applicable
requirements . . . .” To ensure that a student’s job qualifies under the FWS Program, an
institution should maintain a job description. Also, a job description helps the financial aid
administrator, the student, and the supervisor determine the number of hours of work required at
the specified wage rate to meet a student's financial need. It also establishes a written record, for
both student and employer, of the job's duties and responsibilities so that there will be no
misunderstandings.

Volume 6, Chapter 1, of the FSA Handbook lists the elements that should be included in a job
description: the name and address of the student's employer; the purpose of the student's job; the
student's duties and responsibilities; the job qualifications; the job's wage rate or range; the
length of the student's employment (beginning and ending dates); and the name of the student's
supervisor.

CSU-Chico was either unable to provide job descriptions or provided inadequate job descriptions
for 6 of the 33 payments in our sample. Through interviews with students, we were able to
obtain sufficient information to conclude that the students worked in allowable assignments for
5 of these 6 payments. We were unable to contact the remaining student. However, additional
information provided by CSU-Chico was sufficient to confirm that the student worked in an
allowable assignment.

CSU-Chico Staff Did Not Properly
Certify Student Timesheets

To receive payments for FWS employment, CSU-Chico requires its student employees to
prepare monthly timesheets to document the hours worked by the student. The timesheets
provide space for the supervisor’s signature and date. CSU-Chico’s Student Employment Office
reviews the timesheets before submitting them to payroll. The review confirms that the
timesheets include a supervisor’s signature, but does not confirm that the supervisor dated the
form. We found that supervisors signed the timesheets for all 33 of the payments we reviewed,
but that supervisors did not provide a date on the timesheets for 13 of the payments.

Under 34 C.F.R. § 675.19(b)(2)(i), an institution must establish and maintain program and fiscal
records that “[i]nclude a certification by the student’s supervisor, an official of the institution or
off-campus agency, that each student has worked and earned the amount being paid.” Without
including a signature date, the supervisor’s certification is incomplete. It does not provide
evidence that the supervisor signed the timesheet after the work was completed.

Except for the missing signature dates, the 13 timesheets were mathematically accurate and were
prepared in a manner consistent with the other timesheets we reviewed. Nothing came to our
attention during the audit to indicate that the students did not work on their FWS assignments
during the hours reflected on the timesheets.
Final Report
ED-OIG/A09H0013                                                                       Page 5 of 13

CSU-Chico Staff Did Not Adequately Identify
Students When Releasing FWS Warrants

CSU-Chico’s Cashiering Office was responsible for distributing the FWS warrants (i.e., payroll
checks) issued by the California State Controller’s Office. Before releasing warrants to students,
cashiering staff required the students to provide their names and the last three digits of their
social security numbers. The cashiering staff would release a warrant to a third party only if the
third party could provide a written authorization from the student and the last three digits of the
student’s social security number. Neither the students nor the third parties were required to
provide proof of identification, and the Cashiering Office did not maintain a log of the warrants
with recipient signatures confirming the receipt of the warrant.

Under 34 C.F.R. § 668.163(e), “An institution must exercise the level of care and diligence
required of a fiduciary with regard to maintaining and investing title IV, HEA program funds.”
According to 34 C.F.R. § 668.82(b)(1), “In the capacity of a fiduciary . . . [a] participating
institution is subject to the highest standard of care and diligence in administering the programs
and in accounting to the Secretary for the funds received under those programs . . . .” Volume 4,
Chapter 3 of the FSA Handbook states, “A school has a fiduciary responsibility to . . . safeguard
FSA funds [and] ensure FSA funds are used only for the purposes intended . . . .”

Not requiring proper identification could result in the improper negotiation of the warrant. There
is also a risk that third parties may improperly use a student’s personal identifying information.
Requiring students and third parties to provide identification that includes a picture and to sign
and date a warrant disbursement log would provide CSU-Chico with a record of the warrant’s
release and of the individual receiving the warrant.

Recommendations:

We recommend that the Chief Operating Officer for Federal Student Aid require CSU-Chico
to—

1.1	    Return $977 ($637 + $340) of FWS funds that were improperly used for award year
        2005-06 to the FWS Program.

1.2	    Review its records and identify any other charges to the FWS Program in excess of
        students’ FWS awards for award year 2005-2006 to the present and return the appropriate
        amount to the FWS Program.

1.3	    Improve its procedures for monitoring payments charged to individual student
        FWS award balances and, when charges in excess of students’ FWS awards occur,
        promptly return funds to the FWS Program.

1.4 	   Implement procedures to ensure that staff prepare job descriptions for FWS employment
        in accordance with its written procedures and maintain the job descriptions in the
        school’s files.

1.5 	   Revise the Student Employment Office’s procedures for reviewing monthly timesheets to
        include confirmation that a supervisor signed and dated the timesheet after the student’s
        work hours were completed and recorded on the timesheet.
Final Report
ED-OIG/A09H0013                                                                       Page 6 of 13

1.6 	   Develop procedures to ensure that FWS warrants are delivered to the intended students
        (for example, by requiring the recipient or third party to provide identification that
        includes a picture) and to document the delivery of the warrants (for example, in a log
        that requires the signature of the recipient or the third party to whom the warrant is
        delivered).

CSU-Chico’s Comments

CSU-Chico concurred with the finding and recommendations. In its comments to the draft
report, CSU-Chico addressed each of the recommendations and described the corrective actions
taken and planned to address each condition. CSU-Chico stated that a review of its database
identified three additional overpayments, revised reports and new procedures have been
developed to ensure corrective action when students receive FWS funds in excess of their
awards, and new student employment software was implemented that will ensure that job
description are properly prepared and maintained. CSU-Chico also stated that it has
implemented a new electronic process for recording and certifying student timesheets, it has
implemented a requirement for picture identification for release of warrants, and it is developing
procedures for a warrant log.

OIG Response

The actions described in CSU-Chico’s comments, if properly designed and implemented, should
correct the deficiencies noted in our audit finding. The draft report included a recommendation
that CSU-Chico provide documentation to support that a student in our sample worked in an
allowable job assignment or return the FWS funds paid to the student. As part of its comments
on the draft report, CSU-Chico provided sufficient documentation to support that the student
worked on an allowable assignment. Thus, we removed the recommendation in this final report
and renumbered the remaining recommendations.




                  OBJECTIVE, SCOPE, AND METHODOLOGY



Our audit objective was to determine if CSU-Chico had policies and procedures that provided
reasonable assurance that FWS funds were paid to eligible students for allowable employment
and work performed. As part of our review of student eligibility, we also determined if
CSU-Chico completed and accurately reported the verification of applicant data to the
Department and complied with student financial aid award and packaging requirements for
students who received FWS funds. The audit covered the award year 2005-06. To accomplish
our objective, we —
    •	 Gained an understanding of applicable laws, regulations, the FSA Handbook, and
       The Blue Book.
    •	 Reviewed the California State University’s Single Audit Report prepared by its 

       independent public accountant for the fiscal year ended June 30, 2006. 

Final Report
ED-OIG/A09H0013                                                                                       Page 7 of 13

    •	 Reviewed fiscal and program information in the Department’s Postsecondary Education
       Participants System (PEPS) School Catalog Report and fiscal and statistical information
       reported to the Department by CSU-Chico in the Fiscal Operations Report and
       Application to Participate (FISAP) for the award year 2005-06.
    •	 Gained an understanding of CSU-Chico’s system of internal controls for verification of
       application data, student aid packaging, and payment of FWS funds by 1) reviewing
       written policies and procedures, 2) obtaining information on applicable manual and
       electronic processes through interviews and reviews of written documentation of the
       processes, and 3) interviewing school staff from human resources, financial aid, financial
       services, and student employment.
To evaluate CSU-Chico’s procedures and compliance with Federal requirements, we reviewed
student financial aid documentation, FWS job descriptions, and student timesheets for a sample
of 33 FWS payments made during the award year 2005-06.
To identify the sample of 33 FWS payments, we relied on an Excel file provided by
CSU-Chico’s Accounting Department. The file contained a total of 4,714 FWS payroll
transactions totaling $1,515,016 that were made from July 19, 2005, through June 30, 2006, to
783 students employed during award year 2005-06. From this file, we identified the
2,008 payments made to the 217 students who each received over $2,500 in total FWS funds for
the award year. We considered payments to students who received over $2,500 to be of higher
risk for an improper payment for the FWS Program. 2 From the 2,008 FWS payments, we—
    •	 Randomly selected 30 payments for inclusion in our sample.
    •	 Judgmentally selected an additional three payments for review for students employed in
       CSU-Chico’s Athletic Department. During the planning of the audit, we had concerns
       that FWS payments to students employed in a school athletic department might have
       higher risk than payments made to other students. Since the 30 randomly selected
       payments did not include any such students, we selected one payment made to each of the
       three students employed in the Athletic Department for inclusion in our sample. 3
To assess the completeness of the provided Excel file, we confirmed the total FWS payments in
the file to the FWS payment totals reported on the Department’s FISAP and PEPS reports for
award year 2005-06. We concluded that the Excel file was sufficiently reliable for use in
selecting the sample of FWS payments reviewed in the audit.
We performed our fieldwork at CSU-Chico in Chico, California. We held an exit briefing with
CSU-Chico officials on May 15, 2007. Our audit was performed in accordance with generally
accepted government auditing standards appropriate to the scope of the review described above.




_________________________
2
  The school’s financial aid staff advised us that $2,500 is the typical FWS award made to individual full-time

students. 

3
  Our review of the school’s documentation did not identify any deficiencies or other issues for the three payments. 

Final Report
ED-OIG/A09H0013                                                                       Page 8 of 13



                            ADMINISTRATIVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.
If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:
                      Lawrence A. Warder
                      Acting Chief Operating Officer
                      Federal Student Aid
                      U.S. Department of Education
                      Union Center Plaza, Room 112G1
                      830 First Street, NE
                      Washington, D.C. 20202
It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,

                                             /s/ for Beverly Dalman
                                             Gloria Pilotti
                                             Regional Inspector General for Audit


Attachment
Final Report
ED-OIG/A09H0013                                                            Page 9 of 13


                                                                         Attachment




                            CSU-Chico’s Comments 

                           On the Draft Audit Report 



     ED-OIG Notes:

     1.	 Recommendation 1.4 in the draft report was deleted in the final report.
         Therefore, the recommendation numbers used in the CSU-Chico comments do
         not all correspond to the recommendation numbers in the final report.

     2.	 Where appropriate, we have redacted certain personally identifiable
         information from CSU-Chico’s comments. We did not include Attachments
         A & B, but they are available upon request.
California State University, Chico
Chico, California 95929-0025
Vice President for Business and Finance
Office: 530-898-623l       Fax: 530-898-45l3
E-mail: dcgraham@csuchico.edu




                                               August 8, 2007




 Gloria PHotti 

 Regional Inspector General for Audit 

 United States Department of Education 

 Office of Inspector General 

 501 I Street, Suite 9-200 

 Sacramento, CA 95814 


 Subject: 	         Draft Audit Report 

                    Control Number ED-OIG/A09H0013 


 Dear Ms. Pilotti:

 Enclosed is CSU, Chico's responses to the findings noted in the draft audit
 report for administration of the Federal Work-Study Program.

 If you have any questions or require additional information, please contact
 Beverly Delker Gentry, Director of Strategic Planning for Business and
 Finance, at bgentry@csuchico.edu or (530) 898-6231.


                                               SincerE:!y,


                                                   /sl
                                               Denilr1s C. Graham. 

                                               Vice President for Business and Finance 


 Attachments

 cc: 	 Paul Zingg, President
       Drew Caiandre!ia, Vice President for Student Affairs
       George Wellman, Interim Associate Vice PreSident, Financial Services
       Meredith Kelley, Director of Financial Aid and Scholarships
       Beverly Delker Gentry, Director, Strategic Planning for BUSiness and
        Finance




The California State University
                   CALIFORNIA STATE UNIVERSITY, CHICO 

                  FINANCIAL AID AND SCHOLARSHIP OFFICE 

                     FEDERAL WORK-STUDY PROGRAM 


                      RESPONSE TO DRAFT AUDIT REPORT 

                           U.S. DEPT. OF EDUCATION 

                      OFFICE OF THE INSPECTOR GENERAL 

                         SACRAMENTO AUDIT REGION 


Control Number
ED-OIG/A09H0013

FINDING — CSU-Chico’s Procedures for Administration of the FWS
           Program Need Improvement


CSU-Chico’s Procedures Did Not Prevent, or Provide for Timely Correction of,
Charges to the FWS Program in Excess of Students’ FWS Awards

We concur. The year for which we were audited was the first year in a new software
program, and since then, we have implemented additional safeguards to prevent
overpayments, and to ensure timely return of funds to the FWS program.

1.1 	 Return $977 ($637 + $340) of FWS funds that were improperly used for award year
      2005-06 to the FWS Program.

     We concur. Payment will be sent upon receipt of billing as a result of the Final
     Audit Determination Letter.

1.2 	 Review its records and identify any other charges to the FWS Program in excess of
      students’ FWS awards for award year 2005-2006 to the present and return the
      appropriate amount to the FWS Program.

     We concur. We have reviewed our database for any additional overpayments for
     award year 2005-06 and 2006-07. We have found three additional overpayments
     for 05/06. Two students were paid from work-study who had not applied for aid
     ($156 and $422.63) and one student was not eligible for need-based aid ($253.03).
     Payment will be sent with payment from 1.1. We were able to correct overawards
     discovered for 06/07.

1.3 	 Improve its procedures for monitoring payments charged to individual student FWS
      award balances and, when charges in excess of students’ FWS awards occur,
      promptly return funds to the FWS Program.
     We concur. We have revised the reports that we use to monitor overawards in the
     federal work-study program. These revised reports were utilized in the 2006/07 year
     and we identified and corrected additional student overawards.

     In addition, the Financial Aid & Scholarship Office has developed a new procedure
     in conjunction with the payroll office to initiate expenditure transfers from
     departments’ federal work-study accounts to the non-federal student assistant
     accounts when a student becomes over-awarded. In the past, the FASO has notified
     the department when a student over-earned, and it was the responsibility of the
     department to take corrective action. Under the new process, the FASO will notify
     the employing department and the payroll office that the student is no longer
     eligible for work-study. Payroll will terminate the work-study position and trigger
     action by the department to transfer the student into a position funded by non-
     federal campus student assistant dollars.

     This process will be in place with the implementation of the new Student Time and
     Labor module, scheduled to go live in October. Training of campus staff on the
     new process will be conducted in a series of workshops to be held in August and
     September. Training includes how to monitor individual student awards through our
     integrated software system.


CSU-Chico Staff Did Not Prepare and Maintain Adequate Job Descriptions

1.4 	 Document the actual duties and responsibilities of the student we identified during
      our audit, to support that the student worked in an allowable job assignment, or
      return the $3,171 to the FWS Program.

     We concur. The student was employed as a FWS student employee in the Office of
     Academic Advising Programs during the 2005-2006 academic year as an Advising
     Intern. Attached is the job description for Advising Interns which covers the duties
     performed by the student while employed as a FWS student during the 2005-2006
     academic year. This documentation supports that the student worked in an
     allowable job assignment. [Attachment A.]

1.5 	 Implement procedures to ensure that staff prepare job descriptions for FWS
      employment in accordance with its written procedures and maintain the job
      descriptions in the school’s files.

     We concur. CSU, Chico purchased new student employment software in June,
     2005. Conversion of existing job descriptions has now been completed, and any
     jobs renewed since that time have been stored in the database, which is specifically
     designed to capture required job descriptions for both federal work-study positions
     and general student assistant positions. A job cannot be posted without the required
     job description elements. A sample of the job descriptions, as maintained in the new
     software, is attached. [Attachment B.]
CSU-Chico Staff Did Not Properly Certify Student Timesheets

1.6 	   Revise the Student Employment Office’s procedures for reviewing monthly
        timesheets to include confirmation that a supervisor signed and dated the
        timesheet after the student’s work hours were completed and recorded on the
        timesheet.

        We concur. The entire process of recording and certifying student timesheets is
        being converted to an electronic process through the PeopleSoft Student Time and
        Labor module. Students will complete and submit their timesheets on line, the
        supervisor will approve the hours worked on line, and we will generate a series of
        monthly reports to identify problems such as time entered but not submitted,
        duplicate reporting of time when a student has two different jobs, and the reports
        we currently run to identify students who work over 20 hours and over 40 hours.
        This module will be live by October, 2007.

CSU-Chico Staff Did Not Adequately Identify Students When Releasing FWS
Warrants

1.7 	   Develop procedures to ensure that FWS warrants are delivered to the intended
        students (for example, by requiring the recipient or third party to provide
        identification that includes a picture) and to document the delivery of the warrants
        (for example, in a log that requires the signature of the recipient or the third party
        to whom the warrant is delivered).

        We concur. We have implemented the requirement for picture ID for release of
        pay warrant. Warrant log procedures are being developed and will implement
        effective August 1, 2007.
